<html>
<title> - WHEN REGIMES FALL: THE CHALLENGE OF SECURING LETHAL WEAPONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      WHEN REGIMES FALL: THE CHALLENGE OF SECURING LETHAL WEAPONS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2012

                               __________

                           Serial No. 112-163

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
75-163                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abccdbc4ebc8ded8dfc3cec7db85c8c4c685">[email&#160;protected]</a>  



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, 
TIM GRIFFIN, Arkansas                    Virginia<greek-l>
ANN MARIE BUERKLE, New York          BRIAN HIGGINS, New YorkRemoved 6/
RENEE ELLMERS, North Carolina            19/12 deg.
                                     ALLYSON SCHWARTZ, Pennsylvania



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Lincoln P. Bloomfield, Jr., chairman, Henry L. 
  Stimson Center (former Assistant Secretary of State for 
  Political-Military Affairs)....................................     6
Steven P. Bucci, Ph.D., senior research fellow for defense and 
  homeland security, The Heritage Foundation.....................    13
Mr. Leonard S. Spector, deputy director, James Martin Center for 
  Nonproliferation Studies, Monterey Institute of International 
  Studies........................................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade: Prepared statement.....     3
The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....     8
Steven P. Bucci, Ph.D.: Prepared statement.......................    15
Mr. Leonard S. Spector: Prepared statement.......................    23

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48


      WHEN REGIMES FALL: THE CHALLENGE OF SECURING LETHAL WEAPONS

                              ----------                              


                        THURSDAY, JULY 19, 2012

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Edward 
R. Royce (chairman of the subcommittee) presiding.
    Mr. Royce. This hearing will come to order. Today we 
examine the challenge of securing lethal weapons as regimes 
fall, and the cases of Libya and Syria are the primary focus 
here because they highlight this challenge. The Syrian regime 
could be imploding as we speak.
    When we think about the weapons at their disposal, the 
chemical and biological weapons, you think back from what we 
know in our conversations with the Soviets, the former Soviet 
Union in the 1980s, they helped put together a very robust 
program from the Syrians. Iran, today, has been helping Syria 
with this respect, so they have long had an active chemical 
weapons program. We know they have mustard gas. We know they 
have sarin, VX, which is certainly the most lethal of nerve 
agents. So some of the most dangerous chemicals on the planet 
have been weaponized, most of it to put into artillery shells, 
and that is why in the proliferation community they call Syria 
a chemical weapons ``superpower.'' And the question is, what is 
to be done?
    For months, we have heard from the administration that 
these chemical weapons are secure. But yesterday there was a 
report that weapons were being moved to the field. And one U.S. 
official has said, to quote him, ``this regime has a plan for 
ethnic cleansing.'' Now we don't know exactly what the 
intentions are with respect to the way they are moving these 
weapons, but one Syrian Ambassador who defected said that he 
was ``convinced'' that Assad would use these weapons against 
the population.
    I think there are several possible scenarios here, but one 
is that Assad loses control over his chemical weapons, and the 
question is, if that happens, do they come into the hands of 
looters, do they come into the hands of opposition groups? Are 
there terrorist organizations like al-Qaeda that are searching 
for these weapons? Al-Qaeda's interest in obtaining chemical 
and biological weapons is pretty well documented. Others 
believe that Hezbollah could be on the hunt for chemical 
weapons that might fall into their hands. Certainly, they would 
have the means of obtaining them. Iran also has an interest.
    With the scope of Syria's chemical and biological program, 
Defense Secretary Panetta testified that the situation in Syria 
is ``100 times worse'' than the challenge of securing weapons 
in Libya. Some are concerned that the administration has been 
slow to the game here, and as we will hear today there are 
critical steps the United States could be taking.
    Reaching out to elements of the Syrian Army that have 
control over the chemical weapons is one of these steps. Let 
them know they will be rewarded if they keep them under wraps. 
Let them know that they could be punished if they do not. And 
sending the same message, frankly, to the opposition. Working 
closely with regional allies on contingency plans, working with 
Turkey and Jordan and other countries in the region. 
Intelligence sharing, military training, so that they are in 
the lead, so they are able to take decisive action should Syria 
implode. Building up our intelligence gathering network inside 
Syria, making it clear to any future Syrian Government that 
recognition and support is going to depend upon these weapons 
being controlled and being destroyed, and being prepared to act 
decisively. One way to do that is to use surrogates. But if we 
know of these weapons falling into hostile hands there has to 
be a plan of action given their lethal nature.
    Given the magnitude of this challenge, it is discouraging 
that one witness with firsthand experience in tackling these 
kinds of problems will testify that it isn't just the chaotic 
situation in Syria that presents a challenge, but in his view, 
our inefficient government bureaucracy. In his view, and I am 
going to quote him, ``years of adding more and more offices, 
ranking positions and staff results in a slower and more 
cumbersome decision process'' and it impacts effectiveness.
    This subcommittee has spent a good amount of time focused 
on loose shoulder-fired missiles, which terrorists have used 
against commercial aircraft in the past. Earlier this year, the 
top U.S. official charged with tracking them in Libya was 
pretty blunt, and I will quote him: ``How many of these 
shoulder-fired missiles are still missing? The frank answer is: 
We don't know and probably never will.'' Well, we know from our 
experience that they are likely in the thousands, and a point 
of this hearing is to learn from the Libya experience. After 
the Assad regime falls, let us not be hearing from the 
administration that we weren't very effective securing these 
weapons under what, admittedly, are difficult circumstances.
    And I will now turn to the ranking member, Mr. Sherman of 
California, for his opening statement.
    [The prepared statement of Mr. Royce follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Sherman. Thank you, Mr. Chairman. And I think you have 
summarized well why this hearing is so important.
    As terrible as MANPADs are, as terrible as chemical weapons 
are, nuclear weapons are an entirely different order of 
magnitude--and so let me mention Iran. It is so critical that 
we are able to prevent Iran from developing nuclear weapons 
now, so when that regime falls we are not having a hearing not 
about what happens to Syria's chemical weapons, but what 
happens to Iran's nuclear weapons.
    We all looked at the short Iranian Spring of June 2009, and 
we all pray for the day, Insha'Allah, when there are 1 million 
people in the streets of Tehran and this regime realizes it has 
to yield to democratic forces. But when that happens, will they 
have nuclear weapons? Instead of fearing that chemical weapons 
will be used against a Syrian population, will we be talking 
about the possibility of nuclear weapons being used against 
some city in Iran? Instead of chemical weapons perhaps falling 
in the wrong hands, will we be talking about how many nuclear 
weapons does Iran have and what is going to happen to them?
    The solution is to act now over the next year to prevent 
Iran from having nuclear weapons, rather than to think that the 
low-risk approach is to sit back, do nothing or do only as much 
as won't aggravate the business community, won't aggravate our 
European and Asian friends. It may be bureaucratically low risk 
to advocate only sanctions within the realm of the 
conventional, but that may be low risk for an individual 
career. It is not low risk for this country.
    As for Syria, we are of course alarmed that they are moving 
these weapons, and we are alarmed by where they might be used 
or who might get their hands on them. The Libyan MANPADs pose a 
risk to aviation around the world. Some have estimated that 
Qadhafi had 20,000. We have accounted for and recovered 5,000, 
and that is certainly a risk.
    The State Department's Nonproliferation and Disarmament 
Fund is a key tool in our emergency nonproliferation efforts, 
however, funds are limited, and the requested amount for the 
NDF for fiscal 2013 is only $30 million. It was through the NDF 
that the U.S. led much of the effort to secure the MANPADs in 
Libya, or at least secure those that we have been able to 
secure. I would like our witnesses to comment on the 
effectiveness of this and other governmental programs and 
particularly whether they are sufficient to deal with the Syria 
challenge and other challenges.
    Also what should be our contingency plans for preventing 
Syria's weapons from falling into the hands of al-Qaeda-
affiliated groups or Iran or Hezbollah? The worst possible 
outcome is that Assad uses these against his people, but 
perhaps just as dangerous he sells them to Hezbollah or Iran in 
return for weapons he is willing to use.
    I look forward to hearing from our witnesses. I yield back.
    Mr. Royce. Thank you. We will go to Mr. Duncan from South 
Carolina, okay. And Mr. Connolly from Virginia?
    Mr. Connolly. Thank you, Mr. Chairman, and I am glad we are 
having this hearing. And I want to welcome our panel. I 
particularly want to welcome Mr. Spector. He and I worked 
together as staffers on the Hill some time ago, and for some 
reason he has less gray hair than I do. I am not quite sure how 
that happened but welcome, Leonard, glad to have you here 
today.
    According to recent news reports, Syria has begun moving 
some of its chemical weapon stockpiles out of its storage 
facilities. One article chillingly states the situation, Syria 
never signed the 1992 Chemical Weapons Convention and is 
believed to have among other things, mustard gas, a sarin nerve 
agent and even VX. The article goes on to say that analysis and 
officials believe Syria has ballistic missiles that can be 
fitted with chemical warheads, and tens of thousands of 
shoulder-fired missiles terrorists could use to target civilian 
aircraft. The Syrian Government denies that it is moving the 
weapons, though that government's affiliation with terrorist 
groups question credibility of such a claim. It is unclear what 
the movement of these weapons means. Last Thursday's Wall 
Street Journal cited the fact that some have said Assad is 
using the weapons in a high-stakes game of chicken. He may be 
moving them as feint, hoping the threat of a chemical attack 
could drive Sunnis thought to be sympathetic to the rebels, 
back to their homes or from their homes. That is a grisly 
strategy that shines a light on how depraved the regime really 
is.
    So I look forward to hearing from this panel, Mr. Chairman, 
and the suggestions of our panelists in terms of what are the 
options available to the United States. And I thank the chair.
    Mr. Royce. Thank you, Mr. Connolly.
    Let us introduce the distinguished panel of expert 
witnesses at this time. We have Ambassador Lincoln Bloomfield, 
Jr., chairman of the Henry L. Stimson Center. Ambassador 
Bloomfield served as Assistant Secretary of State for 
Political-Military Affairs from '01 to '05. From '08 to '09, as 
special envoy he worked to reduce the threat from the 
proliferation of shoulder-fired missiles. Throughout a 
distinguished career dating back to '81, Ambassador Bloomfield 
has held positions in the Department of Defense, and State, and 
at the White House.
    Dr. Steven Bucci is a senior research fellow for Defense 
and Homeland Security at the Heritage Foundation. In three 
decades of service, Dr. Bucci has served as an Army special 
forces officer and top Pentagon official. He has led 
deployments in Africa, South Asia, and the Persian Gulf. On 
September 11th, he was working directly for the Secretary of 
Defense. He is a recognized expert on the interagency process.
    And Sandy Spector is the deputy director of the Monterey 
Institute of International Studies James Martin Center for 
Nonproliferation Studies. He previously served as the Assistant 
Deputy Administrator for Arms Control and Nonproliferation at 
the National Nuclear Security Administration. He has written 
several articles on Syria's chemical weapons program over the 
last year.
    All of the witness' complete written testimony will be 
entered into the record, and I will remind each of you that if 
you can keep your oral presentation to 5 minutes that is very 
much appreciated. We will start with Ambassador Bloomfield.

    STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., 
 CHAIRMAN, HENRY L. STIMSON CENTER (FORMER ASSISTANT SECRETARY 
            OF STATE FOR POLITICAL-MILITARY AFFAIRS)

    Ambassador Bloomfield. Thank you very much, Mr. Chairman, 
distinguished members. It is an honor to be invited to testify 
before you.
    As I looked at the agenda for today, one could have talked 
about whether we have the best information on Syria that would 
be the work of an analyst or a journalist. We could have talked 
about the technical aspects of their program, and my fellow 
panelists are probably far more expert than I. The way I looked 
at it is someone who has had the privilege of serving in five 
administrations doing all sorts of jobs, starting my career as 
the desk officer for Lebanon in the Pentagon at a time when 
they blew up our Embassy twice, they blew up the Marines, 
Hezbollah was formed, and Syria was behind a lot of the 
trouble. And so I have to tell you that in 30 years I have 
never taken my eye off Syrian politics. It has a certain 
quality to it that maintains your interest through thick and 
thin.
    I have also had the opportunity as the chairman of Stimson 
to participate in a study which took seven scholars to 
Damascus, and the week before President Obama was inaugurated I 
had the opportunity to sit with President Assad and talk to him 
for over 2 hours, and probe in my own mind, how does he talk 
about Iran, how does he talk about religious issues, how does 
he talk about territorial issues with Israel, threat issues? 
Just to take his pulse and get a feel for that was quite 
interesting.
    Mr. Royce. We would like to hear about that.
    Ambassador Bloomfield. Well, obviously everything has 
changed. He was trying to say he was ready for peace and no 
holds barred. And Senator Kerry and Chairman Berman, at the 
time, went to Damascus and heard the same message. That has all 
changed. It is by the boards. It is over for the Assad regime. 
His presidency was an accident of history. His older brother 
was groomed to be the leader and he was killed in a car crash, 
and the eye doctor from London came back and was groomed for 
this position.
    So I have always looked at Syria as somewhat of an 
oligarchy. You have to look at the money, who controls all the 
businesses, who controls the franchise, if you will, who 
controls the security. And that has been mapped out, I am sure. 
As I looked at this, the question I asked myself was kind of a 
Monday morning quarterback question. I am not in the ring 
trying to solve this problem, I am on the outside. So I have 
great regard for everyone on the inside, let me start with 
that.
    But the question is, what would you do if it were up to you 
to address this problem? And I can't get away from the quote 
that you cited, which was mine, and it is not political. It is 
Republicans. It is Democrats. It is Congress. It is the 
administration. But we used to have a much leaner national 
security bureaucracy where individual big thinkers drove the 
train. We have gotten away from that and we have taken very 
talented people and we have put them into such small silos that 
they are very territorial, they have very little budget--you 
just mentioned money, Mr. Sherman. And so I posed the question 
to myself, what would an all-star effort look like? And I have 
tried to lay that out in my prepared testimony.
    It involves a lot of excellent offices inside the U.S. 
Government, probably none of which have ever been put into one 
operation and certainly not under the command of a civilian. 
And I have been privileged to talk to our senior leadership at 
DoD over the years, and they always talk about whole of 
government. Once the troops remove themselves from the field of 
battle the civilians need to move in, in a whole of government 
effort. We talk about that. I am not persuaded that we have 
moved very far toward being able to do ``whole of government.'' 
And I would commend the Syria example as a great place to try 
and make it work. It would take a top-down push. It would take 
principal-level authority from the White House, Secretary of 
State, Secretary of Defense, the Director of National 
Intelligence, and some of the combatant commands to allow 
certain pieces of their resource pool to be put under a single, 
unified team effort.
    And I ask this question: What would happen if there were an 
American school in Damascus and 50 young American children were 
abducted and spread out all over the country? I don't think 
anyone in Washington would stand in the way of an all-points 
dragnet where no one would care whose bureau is in the lead or 
whether it was State or Defense in charge. Everyone would get 
on the same communications net and try to find these children 
as fast as possible. My question is, how important are these 
chemical weapons? If it is that important, can we not simply 
look past all of the lines of authority and resources and pull 
them into a special task force to take on this problem?
    Another point I would like to make and I will stop, is that 
there is no need to wait for the regime to fall. I would like 
to see the logistical aspects of this fused into the political 
strategy. To take Mr. Sherman's point, Iran may use nuclear 
weapons against Israel. That would be a nightmare. But even if 
they don't, it will be a way of enforcing what they are doing 
right now, today, which is exerting radical influence 
throughout the Levant. And that is what we should be mobilizing 
against. This is a strategic defeat in the making for Iran as 
well as Syria. I think we should have an all-star effort to try 
to make sure that it comes out that way. Thank you.
    [The prepared statement of Mr. Bloomfield follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. Thank you, Ambassador Bloomfield.
    Doctor?

STATEMENT OF STEVEN P. BUCCI, PH.D., SENIOR RESEARCH FELLOW FOR 
     DEFENSE AND HOMELAND SECURITY, THE HERITAGE FOUNDATION

    Mr. Bucci. Mr. Chairman, members of the subcommittee, I 
appreciate you giving me the opportunity to testify this 
afternoon. I would like to make three main points very quickly 
and then hit some recommendations on possible actions for the 
United States. The first point is that we need to keep in mind, 
Syria today is not Iraq in 2003, and it is not Libya in the 
last incursion. And I can go into details as to why I feel that 
way during a Q&A if you would like, but we cannot use those two 
events for too much analogous lessons because it will lead us 
down false paths.
    The second point is probably more important. Today there 
are no good military options here. A full-scale effort to 
control all 50 sites, whether we do it before the regime falls 
or immediately afterwards has been pointed out it would take 
about 75,000 troops to do that. By anybody's definition that is 
an invasion. And I fear that if we try to do something like 
that we would get a negative response from both sides of this 
conflict if we came into that country.
    The next option that has been bandied about is using air 
strikes to destroy all 50 sites. That is another false trail to 
go down. The amount of collateral damage of an operation like 
that would be astronomical. The strikes themselves would kill 
civilians, it would release agent into the air, and frankly, 
all it would do would be to basically unlock the gates to allow 
people to get into those facilities to loot them.
    And the last option, which is the least bad, is to come up 
with some use of special operations forces to possibly go in 
and do a one-off operation should there be an imminent 
potential release of chemical weapons against the population or 
some knowledge of an immediate transfer of some of those 
weapons to people we don't want to have them. You could 
possibly use SOF there, but again that is a very dangerous and 
tricky thing. And remember, we are talking about stuff in these 
sites that are measured in tons not in, go in and come out with 
a couple of briefcases full of agent. SOF going in there is not 
going to get it all out and they can't stay there and protect 
themselves.
    The last point is that to do any of these things we have 
got to utilize our friends in the region from the intelligence 
and the surveillance standpoint, and building a regime around 
Syria to try and monitor anything moving out, we have got to 
use all their neighbors. Israel, Jordan, Turkey, Iraq, everyone 
has to be involved in helping us with this. And then if we do 
take any action, we need to drop Israel out of that equation 
and really depend on some of our friendly Muslim countries in 
the area, predominantly Turkey and Jordan. Perhaps get some of 
the Gulf states who have some pretty good special operations 
forces, and perhaps get them involved as well.
    If we take any actions at all, they should be the continued 
ramping up of all of our intelligence and surveillance, which I 
would hope the administration is already maxing out today, but 
we need to make sure that is happening. We need to be prepared 
and have planned for one of those one-off events if something 
does break and we get intelligence of it that we could go in 
and try and use SOF to perhaps stop that from happening. We 
need to build that security paradigm today with the neighbors, 
making sure we are all on the same sheet of music and we have 
all come to an agreement as to what we are going to do with any 
WMD that falls into anybody's hands, which one would hope would 
be to turn it over to us for destruction.
    We should warn the Assad regime today, and all of the 
members of the resistance that if they use any of this stuff 
there is going to be some retribution. Specifically and 
publicly we should warn them that anyone who comes into 
possession of any WMD and turns it over to al-Qaeda, Hezbollah 
or Iran that there would be a kinetic response to stop that 
from happening.
    And then lastly, we do need to plan for some sort of big 
control event, using Muslim forces as I have mentioned, and 
perhaps, and this would be the most U.S. involvement directly, 
would be the use of U.S. special forces, perhaps Army Chemical 
Corps, Marine Corps CBIRF, or even some of the National Guard 
WMD Civil Support teams as potential advisors, so when we send 
forces in there they actually have some technical capability to 
deal with the things that are in those sites.
    Thank you.
    [The prepared statement of Mr. Bucci follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. Thank you, Dr. Bucci.
    Mr. Spector?

  STATEMENT OF MR. LEONARD S. SPECTOR, DEPUTY DIRECTOR, JAMES 
MARTIN CENTER FOR NONPROLIFERATION STUDIES, MONTEREY INSTITUTE 
                    OF INTERNATIONAL STUDIES

    Mr. Spector. Thank you, Mr. Chairman, and Ranking Minority 
Member Sherman. It is a pleasure to be here and to speak on 
these issues.
    As I said in my written remarks, I think we need to look at 
different classes of weapons and try to have a differentiated 
policy, because there is a good deal of variation. We have to 
worry about light arms, heavy arms, weapons of particular 
interest to terrorists, ballistic missiles, and then chemical 
weapons. And I will just say a few words on a number of these.
    I think the biological weapons situation seems to be very 
opaque. No one seems to know if they exist, so I will put those 
aside for the moment, but obviously they would be of great 
concern. And nuclear weapons and fissile material are not known 
to be present in Syria, but certain sites, however, are 
suspected of potentially contributing to this and they are 
still to be fully understood.
    Our goals, I think, in my testimony, very much are similar 
to what we have heard about the importance of maintaining 
positive control, avoiding use and avoiding leakage out of the 
country. But I think one measure that should be implemented 
immediately, and I believe it was noted in the chairman's 
remarks as he introduced us, was a need to let the guardians, 
the custodians of these weapons, know that if they stand by the 
weapons, protect them or hold them close that that will be 
taken as good behavior. It will be recognized in some fashion, 
and that these forces do not need to worry about the fact that 
they were associated with these weapons, being held against 
them, provided of course there is no use and there is sort of 
holding in place. And in a sense, I think that is one model for 
trying to keep our hands around this, which is to use the 
experts that they have that may be prepared in this time of 
turmoil to sort of sit tight if they know they will be safe.
    One concern I have had is that as the lines in the country 
shift, a certain of these chemical sites will fall behind the 
front lines, so to speak, and will be under the nominal control 
at least of the Free Syrian Army. I think in settings like this 
we have to worry about how the guardians will behave. Will they 
run off because they want to escape the Free Syrian Army? And 
again, it is very important to give them an understanding that 
they do not have that to fear.
    Another point that I tried to make in the testimony was the 
importance of using the moment of recognition as a tool for 
trying to persuade the new Syrian Government to relinquish 
these weapons. This has happened in the past in Argentina, 
Brazil, South Africa, Belarus, Kazakhstan and Ukraine, with 
some variation, where this leverage that the outside powers 
have has been used to sort of make a precondition. If you want 
these external support opportunities, you must renounce some of 
these weapons that are in such bad odor, so to speak, 
internationally. Qadhafi did this both for chemical and for 
nuclear weapons.
    So I think we have some good examples of how this tool can 
be used. And therefore, I think the Syrian Government that 
replaces Assad must be pressed to take very similar conditions. 
It is going to be harder for them because these weapons have 
been part of some anti-Israel bulwark that Syria has portrayed 
itself as representing, but I think we have ways of trying to 
get our hands around this, in particular during the period of 
turmoil. Finding a way to get international monitors, perhaps, 
at some sites where the Free Syrian Army has some control, and 
starting a process in which there is sort of an international 
coloration placed on the chemical weapons so that the default 
is that the weapons are given up and the country signs the 
Chemical Weapons Convention.
    One matter that hasn't come up here previously is the issue 
of the Scuds and the legacy of these missiles. There are a 
couple of hundred of them. They are very dangerous from the 
standpoint of Israel. They perhaps even represent a threat to 
Iran if we have a Sunni, anti-Iranian government in Syria. And 
I think we need to be looking for ways to diminish this 
capability. Again, we have had precedents in eastern Europe and 
with Libya. We were able to persuade countries, at the time 
that they were getting recognition and assistance as the 
governments were being formed, to renounce these weapons that 
are over a threshold in which we say they are capable of 
carrying weapons of mass destruction. It is also possible that 
these weapons may become targets for the Free Syrian Army as 
symbols of the regime or maybe targeted by others.
    The nuclear legacy is also one we want to deal with. If 
some of these sites that are suspected of having nuclear 
activities, but where the IAEA is not permitted in, we may want 
to, and we really should, press the Free Syrian Army as they 
gain control of them to authorize at least informal inspections 
by Western specialists, if not also by the IAEA until a later 
time.
    Finally, a few words about the resources. It is not only 
the Nonproliferation and Disarmament Fund which is potentially 
available, it is also the Cooperative Threat Reduction monies 
at the Defense Department which could be of extremely valuable 
use here for control purposes and also for training and sort of 
bringing the new government into sort of the, accept the norms 
that we all accept on the weapons of mass destruction issue. My 
understanding is the Defense Department is not able to use its 
CTR money in the Middle East at this time, but that they are 
seeking the certification to do so, which I believe would be a 
very urgent priority.
    Thank you.
    [The prepared statement of Mr. Spector follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. Thank you very much, Mr. Spector. Let me ask a 
couple of quick questions here, first to Dr. Bucci.
    The United States has been reportedly, from what is in the 
papers, in discussions with Turkey and with Jordan, on 
contingency plans for loose chemical weaponry. Based upon your 
knowledge, having worked with both countries, what are their 
capabilities in this regard and what advantages do they bring?
    Mr. Bucci. Both have very mature militaries. Turkey, their 
military is huge, first of all. They definitely have the 
capability to provide the manpower to do things, and they are 
actually quite disciplined for a conscript-based army because 
they are fairly draconian with their methodologies. They could 
definitely provide the bulk of the forces to provide security 
around any of these sites. The problem there is again their 
Turkish vice Arab and that causes some friction. Now they are a 
Muslim country so that gives them certain advantages, but not 
as much as we sometimes think it would. The Jordanians better 
thought of as far as being fellow Arabs, and actually a very, 
very capable Army, particularly their special operations 
forces. Not near as big and neither of them have the kind of 
technological capabilities of dealing with these weapons 
systems because neither of them has a chemical capability. So 
from a technological standpoint they would have to be augmented 
by some technical experts as they do it, but as far as the 
military discipline, their positive association with us and 
experience working with us, they could handle this kind of 
thing very well. But again, if you do it in a nonpermissive 
environment it is going to get dicey very, very quickly.
    Mr. Royce. I have got a quick question for you though, 
because some years ago when the PKK leader, Ocalan, was being 
held or being protected by Syria, I remember the Turks were 
very, very close to taking military action. And I would 
anticipate that because they have mobilized, because it was 
only at the last minute that the Syrians gave them up because 
they thought they would be attacked. And my presumption was 
that the Turkish military would have done some due diligence in 
terms of being prepared to deal with chemical weapons given the 
fact that they were prepared to go in.
    Might that cause you to conclude that perhaps they have 
looked at this scenario and might be better prepared?
    Mr. Bucci. They clearly have a defensive capability. I mean 
they have American protective masks, for instance, so they have 
the very basic capability to operate in a chemical environment. 
So they are not totally neophytes in the area, but I don't 
really feel----
    Mr. Royce. Then let me ask you another question. Last week 
11 Russian warships that we saw that were dispatched to a 
Syrian port, whole battalions of Russian marines aboard.
    I remember a trip I took once to Russia where we listened 
to the gentleman who was called the ``Father of the Plague'' 
explain about what they had developed in Russia but that some 
of their scientists were missing. And from what we know about 
Syria's chemical weapons program it seems that some of the 
advances came with Russian assistance, right?
    Mr. Bucci. Absolutely.
    Mr. Royce. In the event of a security vacuum in Syria, 
could the Russians play a role with respect to these 50 sites?
    Mr. Bucci. They hopefully could. My guess is those marines 
are primarily there to protect that port base which is very, 
very important to the Russian navy. But my guess is there is 
also some elements in that force that is there to probably 
clean up some of the evidence, if you will, of the Russian 
collusion with the development of this program in the first 
place. One would hope that the Russians would be willing to 
cooperate with an international effort to keep these things 
from getting out of hand. But given the Russian intransigence 
in the U.N. as of this morning, I would not put too much faith 
in the Russians being very, very cooperative, Mr. Chairman.
    Mr. Royce. Let me turn to Ambassador Bloomfield for my last 
question, which goes to the phenomenal amount of information 
that you see on the front pages of the newspapers these days 
which are in the form of leaks about our intelligence 
operations. And it is across the board, everything from the 
details of those who assisted in the capture of Osama bin Laden 
to the details of the attacks on Iran's computers.
    You served in government in many different positions over 
the years. Are leaks more prevalent and more dangerous these 
days, as it seems to me, given the issues that we are talking 
about and given the things that we keep discovering on the 
front page?
    Ambassador Bloomfield. Mr. Chairman, in my opinion they 
are. And it is a function of a cultural change, I would say. 
Because we had so many journalists embedded with our troops 
going into Iraq, there was naturally a far more granular amount 
of information that was clearly revealed about how we do our 
business. And you have journalists now who have suffered in the 
field. They have taken casualties as part of the effort to 
report on our interventions, and they enjoy the high trust of 
the intelligence community and the military. So I just think it 
is a natural evolution.
    Does that mean I approve of all the leaks? I certainly 
don't. Somebody is making a judgment that they want it out 
there for some, perhaps, deterrence purposes or to advertise 
their skill and capability. Those judgments should all be made 
at very high levels. This isn't the first generation of 
government that has leaked, but it is on a higher and more 
sensitive scale in my opinion.
    Mr. Royce. Thank you. Let me turn to our ranking member, 
Mr. Sherman from California.
    Mr. Sherman. Thank you, Mr. Chairman.
    There is a tendency in all of these conflicts for us to 
think that because the bad guys are bad the opponents must be 
really, really good. And there are shades of gray. And because 
we assume that those trying to overthrow the bad regime must be 
very, very good, we don't bother to use our leverage to get 
some promises and enforceable promises up front.
    Has any element for the Free Syrian Army or the various 
groups trying to overthrow the Assad regime stated publicly 
that they are committed to Syria signing the Chemical Weapons 
Convention and adhering to it?
    Ambassador Bloomfield. Not to my knowledge.
    Mr. Sherman. And yet we play the critical role for them 
while not asking them to even issue a press release. This is a 
repeat of our desire so much that they be successful that we 
ask them to do nothing that will help us. Assad has these 
chemical weapons, and I think he would use them if he thought 
they were helpful. Is there anything he can do with these 
weapons that he can't do with conventional shelling, 
conventional explosive devices dropped from airplanes?
    He is moving them for some reason. One possibility, he 
plans to use them in a worst case scenario for him, whole areas 
of his country will be under the control of rebel forces, but 
is there anything he can do with these chemical weapons that he 
can't do with more conventional weapons?
    Doctor?
    Mr. Bucci. Well, sir, primarily, I mean you are going to 
kill people. The chemical weapons would kill them far more 
efficiently, would kill them far faster and would cause a great 
deal of panic among both the opposition forces and the rest of 
the civilian population.
    There has been some talk about the regime trying to carve 
out a rump Alawite state toward the coast, trying to get the 
Sunnis to move out of that area. Even the threat of something 
like this could cause people to start to move if that is their 
actual stated intentions. So there is a use for them, a very 
nefarious use, granted, beyond conventional weapons.
    Mr. Sherman. And that is a use that couldn't be achieved 
just with strategic bombing capacities that the Syrian air 
force has?
    Mr. Bucci. You could do it with either one, but the fear 
factor that comes in when you begin using chemical weapons is 
astronomical and should not be discounted.
    Mr. Sherman. Now Assad is moving his chemical weapons. Is 
he moving them to areas of the country that he feels he will 
always control, or there is a lot of discussion he is moving 
them, is he moving them to protect them and make sure they are 
not behind the lines of the rebels, or is he moving them 
consistent with future use?
    Mr. Bucci. At this point, sir, I don't know, and I am not 
sure if our intelligence community knows either. That is what 
they are trying to determine, what exactly is the purpose for 
this alleged movement? And to be honest with you, I am not even 
sure if the movement itself has been confirmed, let alone the 
intention.
    Mr. Sherman. The intention is hard to determine, but we 
don't even know to which locations he has moved or even, I 
guess, it may be classified, but I haven't seen any reports 
indicating he moved them from here that is a predominantly 
Sunni area where he may lose control, or he moved them to here 
that is an Alawite area where he is confident he will retain 
control.
    Ambassador, I see you nodding in agreement with our lack of 
knowledge.
    Ambassador Bloomfield. My only surmise, Mr. Sherman, is 
that he is trying to hang onto power and shoot his way out of 
trouble; it is a failed strategy and everything is in the 
context of survival. It could be a Plan B to take the 
offensive, but obviously it is something that should be tracked 
closely and we will never know.
    Mr. Sherman. Does anyone else have a strategy for comments 
on getting the rebel groups, particularly the Free Syrian Army, 
to agree now when they need us the most to sign the Chemical 
Weapons Convention and otherwise act responsibly toward these 
weapons?
    Mr. Spector, I don't know if you had a comment on that.
    Mr. Spector. I thought the leverage was, possibly, greatest 
when they are seeking formal international recognition, but 
whenever we do it, it is going to be difficult because there 
will be a domestic audience they have to play to as well. So 
what I was proposing is that we sort of start the process de 
facto during this strange period, the interregnum, by trying to 
get some international oversight at least on some of the sites 
and that creates a sort of atmosphere or environment in which 
the expected outcome is, yes, they will join the treaty and so 
forth. So I think if you go about this head on it may be not 
quite as effective as a gradual approach, but I am not 
disagreeing with you.
    Mr. Sherman. I think we sell our support too cheaply when 
we don't insist on this, Ambassador. And then I realize my time 
is up.
    Ambassador Bloomfield. Congressman, I would just point out 
that in Iraq in 2003, the policy team of which I was a part, 
part of that team decided that anyone who had been affiliated 
with the Baath Party in the regime should not be given a second 
chance. And indeed, the entire Iraqi army was put outside the 
door, at which point all of the competent military talent in 
the country turned against our stabilization effort.
    In Syria, unless we intend to repeat that mistake, not only 
could we be communicating with the opposition, but we should be 
communicating with people who in a dictatorship aren't making 
decisions anyway; so we are not blaming the mid-level of 
military except for those who are particularly aggressive in 
shooting up Daraa and Homs and places like that. We should be 
trying to peel off the regime as well as the opposition, and so 
I would say that across the board to anyone who has military 
competency.
    But secondly, I would beg the question of how we message 
this. Those countries are dense with information operations 
coming from adverse sources. Hezbollah, Iran and others 
broadcast heavily into that information space. I am not sure 
what the U.S. Government is doing, but this is an opportunity 
for us to decide what messages should be making the rounds in 
Syria so people know that there are war crimes for the worst 
offenders, there is salvation for those who mark weapons and 
get in touch with the right places. In other words, the 
technological equivalent of the leafletting and collecting 
effort we did in Iraq before we fired the Iraqi army.
    Mr. Spector. Can I just add a point which is that we 
haven't obtained ``nothing'' at this stage. My impression is we 
have received assurances that the Free Syrian Army won't use 
the weapons and will try to keep track of them as soon as they 
gain some control. So I don't think it is a zero kind of 
commitment on the chemical weapon front, but it certainly 
hasn't gone as far as your suggestion.
    Mr. Royce. Let us go to Mr. Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. One of the problems 
that the United States has faced in the past is good intel 
coming from the region of the Middle East especially in closed 
countries. So Dr. Bucci, based on your experience with 
intelligence, and honestly, how good is the intel that we are 
getting or that we have already? How good is it?
    Mr. Bucci. It is at best, or should be, suspect. We have 
proven in two different situations both in Iraq and then in 
Libya that our intel about weapons of all sorts has been 
somewhat less than it needed to be. Now we are looking at the 
country of Syria which has been even more closed and done more 
things behind the curtain than those other two countries. So 
our knowledge of exactly how many of what type of weapon they 
have at each site is pretty ethereal. They are doing the best 
they can. They are working all the partners in the region who 
do have human sources inside those countries, and we are trying 
to milk as much intel out of those sources as possible. But 
anyone who tells you it is complete and 100 percent accurate is 
dreaming. It is at best incomplete. I wish I could give you a 
more accurate answer than that and I wish I could give you a 
more positive one, but I think that is about the best we are 
going to do.
    Mr. Duncan. That is not comforting. It is not comforting us 
at all.
    Mr. Bucci. No sir, it is not.
    Mr. Duncan. In 2007, the Israeli attack on the nuclear 
facilities in Syria took out the reactor. But we are talking a 
lot about chemical weapons here today in this very, very 
concerning area, but just as concerning should be the nuclear 
capability and components within Syria that could fall in the 
hands of, say, Iran who is actively searching for a nuclear 
capability. So can you talk, any of you really, but I will 
address it to Dr. Bucci first, can you talk about the 
centrifuges and any of the ability to enrich uranium and other 
things that are used in the nuclear capacity that weren't 
destroyed in '07? Do we have a handle on what is there and what 
is happening to that technology?
    Mr. Bucci. We do not have a perfectly accurate handle on 
what was there. To be honest with you, I am guessing what the 
Iranians have today is probably better than what the Syrians 
had in 2007, so I don't think having a yard sale in Syria is 
going to bring up too much from the equipment standpoint.
    Of more concern is any possible fuel that was left over, 
just radioactive material that would probably be of less 
interest to Iran but would be of interest to Hezbollah or al-
Qaeda for use in a radiological dispersal device, a dirty bomb. 
That would be a concern and we don't have a good handle on how 
much of that was left, what was destroyed, what wasn't 
destroyed during that raid. So again, an incomplete picture but 
there are some things that we need to keep track of or be 
trying to find out before they start walking over any borders.
    Mr. Duncan. How difficult would it be for Hezbollah to take 
that across the Lebanon border?
    Mr. Bucci. Into Lebanon, probably not too difficult, sir.
    Mr. Duncan. I just want to shift gears here in my remaining 
time and talk about shoulder-fired missiles. Ambassador, you 
had talked about that I think, but do we have a handle on how 
many, I have read different numbers, tens of thousands of 
shoulder-fired MANPADs basically, in Syria. Do we have a handle 
on where those are? And do we have an adequate defense for that 
in this nation if those fall into the hands of the terrorists?
    Ambassador Bloomfield. Well, sir, on the latter question, 
we don't. All it takes is one passenger aircraft to trigger a 
lot of consequences that would be difficult and adverse, as 9/
11 did with TSA and everything that has happened because of 
airline security. So the best strategy is to try to do our best 
so that the nightmare never happens.
    It has been a long time since I worked in the Pentagon. I 
was there for 8 years. DIA would normally have had a very good 
lay-down of where the weapons stores and sites should be, which 
units would be capable of air defense and what reactions they 
had to the previous encounters with Israel in particular, and 
so I would expect there is a very strong air defense component 
to their regular military. There may be special forces as well 
that are Alawite and loyal to the regime.
    I personally am not up on the intelligence but that is 
where I would look. I would try to piece together the best map 
I could, and again try to reach out to those individuals at 
this time and tell them how to defect and how to secure them 
and how to make sure that those don't become a factor in the 
aftermath.
    Mr. Duncan. Yes, we are concerned about Hezbollah and 
Hamas, but what about the Palestinian that would be very 
capable of using a MANPAD due to their proximity to Ben Gurion 
Airport?
    Ambassador Bloomfield. When you mention the Palestinians, I 
immediately think they are Sunni. And so Damascus gave a home 
to Khaled Meishal, the radical Hamas leader, who then started 
to look around and see that his people were being killed by the 
regime. They were being shot up. Those were Sunnis being killed 
by the Syrian regime. So I think that there is a potential 
split there, and I don't know if that is a tactical or even a 
strategic opportunity for the United States, and I am not 
flagging a desire to try to embrace radical Palestinians. But 
clearly, you want to peel off radicals from each other, and so 
I would have a political working group looking very long and 
hard about how to exploit that in the information space, to 
create mistrust.
    Mr. Royce. Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And actually if I 
could pick up, Ambassador Bloomfield, on what you were just 
saying. I mean one of the complications obviously in the Syrian 
situation is that it is an Alawite-dominated government and 
military, and Sunnis are definitely in a second tier and 
watched carefully at all levels.
    Would it be fair to say that when it comes to chemical 
weapons storage that storage is also very much in the control 
of the Alawite minority? In the power structure, I mean.
    Ambassador Bloomfield. Congressman Connolly, I would expect 
so. I go back to Hafez al-Assad, when there was a whole 
battalion of T-72 tanks under tarpaulins sitting outside the 
apartments in Damascus where the regime figures lived. And this 
was during the Muslim Brotherhood episode that led to the Hama 
Massacre where 20,000 were killed. The Syrian army would not do 
the job, so he turned to an Alawite army, his brother, this is 
Bashar's uncle, Rifat, took in the Defense Companies and they 
moved in under threat of their own death according to our 
attache on the scene at the time, who witnessed it and said 
these guys were scared for their lives unless they went in and 
killed everyone and put it down. So I would expect there would 
be extreme loyalty attached to those assets.
    Mr. Connolly. Following up on that logic, would it also be 
fair to say that until and unless this fracturing among the 
Alawite elite, if ever, or their defeat that control of the 
chemical weapons stockpiles is unlikely in the short term to 
get in the hands of others that worry us too?
    Ambassador Bloomfield. I have never lived through a 
revolution. And when your spouse and kids and relatives are all 
jumping in cars as happened in Iraq, stuffing cash in the trunk 
and racing down for the nearest border, I would not have much 
comfort about any particular----
    Mr. Connolly. Chaos ensues and--yes.
    Ambassador Bloomfield. That is right.
    Mr. Connolly. Saddam Hussein, in fact, Sandy Spector, used 
chemical weapons against his own population. Has either of the 
Assads been known ever to deploy chemical weapons within Syria?
    Mr. Spector. Not that I am aware of, but what they have 
done just recently in terms of the wholesale slaughter in some 
of these cities indicates that they are pretty prepared to take 
extremely harsh and coercive measures. And so you wonder how 
big a threshold they perceive they would be going over if they 
were to take this additional step. I think there has been 
enough international focus on this to at least etch the 
threshold a little deeper than it might otherwise be, but I 
don't think there is any kind of moral compunction. I think it 
is more kind of practical tradeoffs.
    Mr. Connolly. Dr. Bucci?
    Mr. Bucci. Sir, the fact that this regime has been using 
not just small arms and not even just heavy machine guns but, 
literally, anti-aircraft machine guns that one of those shells, 
I mean it is against the Geneva Convention to use those against 
personnel and he is gunning down civilians with them. So the 
step from that to using a chemical weapon against your civilian 
population, if you feel that threatened in your survival as a 
regime, is a very small one for somebody like Assad. So I would 
not be surprised at all if he made the decision to use those 
chemical weapons against his own people unless he gets 
sufficient messaging to deter him from doing it, and if he 
thinks there is some other way out or some other way of 
survival. It is very likely that we could see the use of those 
weapons against the civilian population of Syria.
    Mr. Connolly. Well, okay. I am hearing both of you say, I 
wouldn't count on Assad to have some moral compunction or some 
special abstract line beyond which he will not go, because 
after all these are chemical weapons. That is a different order 
of magnitude. But on the international level and here in the 
West, do we, should we have such a line that says, we deplore 
and we call for your ouster, regime change, based on what you 
have already done, but if you cross that line, what?
    Mr. Bucci. Sir, I think that is a very thin line and a very 
artificial one. I think the decision needs to be made; you are 
either an abhorrent leader doing war crimes against your 
population or you are not. What color of war crime it is, is a 
little hard to define.
    Mr. Connolly. I understand and sympathize with that point 
of view up to a point, but the consequence of that point of 
view or the logic of that point of view gets us to the point 
where we stop distinguishing among weapons. And as a matter of 
fact, under international law we do, we do have a special 
understanding with respect to chemical weapons. And so 
conflating these, in looking at the horrors of the regime could 
have an unintended consequence of, frankly, diluting the 
international regime we have created around and to control and 
regulate chemical weapons.
    Sandy?
    Mr. Spector. Yes, my sense is that we were all hesitant to 
imagine intervention because of the experience in Libya and in 
Iraq. But this is a level of intensity which we would not have 
seen before, and I think the other side appreciates it also. In 
other words that there is a presumption to be overcome that we 
are not going to intervene, but chemical weapons would overcome 
the presumption. And I think that is what we want to make 
clear, and I think we are doing it. It has been repeated at 
least twice in the last week by the administration. They 
haven't used the word, we are going to intervene, but they have 
said that this is a major red line. So I think it is being 
treated differently, and I----
    Mr. Connolly. And should be?
    Ambassador Bloomfield. It should be different.
    Mr. Connolly. I am asking, and it should be?
    Ambassador Bloomfield. I think in the political 
circumstances in which we find ourselves after the history of 
Iraq and Libya, we have been sort of hamstrung in terms of 
doing what we might have done otherwise in Syria, so I think 
treating chemical weapons as the next threshold and an 
important one is appropriate.
    Mr. Connolly. Mr. Chairman, my time is up but I do see 
Ambassador Bloomfield wanting to also weigh in on this, if the 
chair would so indulge. I thank the chair.
    Ambassador Bloomfield. Obviously, Congressman Connolly, you 
are on to an important point. I share it. There is a 
difference. The tradecraft that any administration would 
exercise is to make sure that they are not setting a special 
status on chemical weapons that sends a message that everything 
else short of that is somehow okay. And so I think one way to 
differentiate it is to message, first of all, we know what you 
are doing--even if we don't--and secondly, if there is any use 
of these banned weapons or major use of conventional weapons, I 
mean Hellfire-type missiles from helicopters, that the people 
who are actually commanding those units will be on the list 
that ends up in the docket of international law. They will 
never have a life outside of jail, to the end of the earth. So 
you begin to say, if you sit down and just ride it out and if 
you work with us you are not on the list. But if you start to 
do these other things, the list grows.
    Mr. Royce. Let me conclude by thanking our panel of expert 
witnesses for their excellent testimony, and also the members 
of the committee. Our staff, I think, would like to follow up 
with each of the three of you, if that is all right, to further 
explore some of these ideas. And I am particularly interested 
in Ambassador Bloomfield's task force recommendations here, and 
so we will be in touch with each of you. But again, we thank 
you for taking the time and preparing this testimony.
    We stand adjourned.
    [Whereupon, at 3:04 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<n-iden-3><pound><box> stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
